                         NEWS RELEASE

                                        Office of the United States Attorney
                                              Eastern District of Texas
FOR IMMEDIATE RELEASE                                 Contact: Davilyn Brackin
DATE: November 1, 2004                                Public Affairs Specialist
                                                      (409) 839-2538


     TEXAS COLLEGE FORMER EMPLOYEE SENTENCED
            FOR THEFT OF FINANCIAL AID

(Tyler, TX)          A 32-year-old Tyler woman was sentenced today to 18

months in federal prison for misappropriation of funds at Texas College.

       TIFFANY RENEE JENKINS was also ordered by United States District

Judge William M. Steger to pay restitution in the amount of $77,005.62 to

Texas College and 30 individual students.

       According to information presented in court, from April 2001, to October

2002, Jenkins was an accounts receivable clerk at Texas College in Tyler.

During this time, Jenkins manipulated Federal Work Study funds and converted

the funds for her own personal use. Jenkins pleaded guilty to the charges on

June 7, 2004.

              Matthew D. Orwig, United States Attorney for the Eastern

       District of Texas praised the work of the investigative agencies on

       this case, "The agents are to be commended for their diligence

       and hard work. Manipulation of federal educational funds will not

       be tolerated in the Eastern District of Texas. We will continue to

       aggressively investigate and prosecute those who steal from

       Texas' colleges, universities and students."

                                   --more–
Jenkins Sentencing
November 1, 2004
Page 2


     This case was investigated by the U.S. Department of Education, Office

of Inspector General and the Federal Bureau of Investigation. The case was

prosecuted by Assistant U.S. Attorney Traci Kenner.



                                  ###
